U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Alice Perkins, et vir v. United States, No. 20-1388
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 31,
2021. The government’s response is now due, after one extension, on June 21, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 21, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1388
PERKINS, ALICE, ET VIR
COMMISSIONER OF INTERNAL REVENUE

GARY D. BOREK
99 VICTORIA BOULEVARD
CHEEKTOWAGA, NY 14225
716-839-4321
JOSEPH J. HEATH
512 JAMESVILLE AVENUE
SYRACUSE, NY 13210
315-447-4851
JJHEATH1946@GMAIL.COM
MARGARET A. MURPHY
LAW OFFICE OF MARGARET A. MURPHY
5354 BRIERCLIFF DRIVE
HAMBURG, NY 14075
7168671536
MAM@MAMURPHYPC.COM

